20-7551

\

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Crourt, U.S.

filed

MAR 1 5 2Q2I
££Q££oftheclerk
DENNIS ROGER BOLZE - PETITIONER
vs.
WARDEN, FCI COLEMAN LOW/STATE OF TENNESSEE- RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEALS FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Dennis Roger Bolze
Reg. No. 14825-067
FCI Coleman Low

w

i*wia

P.O. Box 1031
Coleman, FL 33521-1031

:k'

QUESTIONS PRESENTED

QUESTION ONE:
When a State intentionally abandons State law and deprives an individual of counsel
during a critical stage in the criminal proceedings, does the state court lose subjectmatter jurisdiction over the criminal case? and,
QUESTION TWO:
Is 28 U.S.C. §2254's limit constitutionally valid when its enforcement results in an
individual's detention without a lawful reason, i.e. a valid criminal judgment creating a
fundamental miscarriage of justice in the process?

-iii-

LIST OF PARTIES

[xxx] All parties appear in the caption of the case on the cover page.

-iii-

TABLE OF CONTENTS

OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF CASE

3

REASONS FOR GRANTING THE WRIT

4

29

CONCLUSON

INDEX OF APPENDIXES
APPENDIX A

0-51

APPENDIX B

52-53

APPENDIX C

54-62

APPENDIX D

63-71

APPENDIX E

72-75

APPENDIX F

76-77

APPENDIX G

78-96

APPENDIX H

97-123

TABLE OF AUTHORITIES
CASES FROM THE UNITED STATES SUPREME COURT:

PAGE(s)

Amadeo v. Zant, 466 U.S. 214, 222 (1988).

20

Banks v. Dretke, 540 U.S. 668, 691 (2004).

20

Boyd v. Dutton, 405 U.S. 1, 3 (1972).

11

Boykin v. Alabama, 395 U.S. 238, 242-44 (1969)
Burgett v. Texas, 389 U.S. 109,115 (1967)

8
22

Carnley v. Cochran, 369 U.S. 506 at 516-17 (1987);

26,27

Coleman v. Thompson, 501 U.S.722, 759 (1991).

20,25

Faretta v. California, 422 U.S. 806, 821-22 (1975
Gideon v. Wainwright, 372 U.S. 335, 339-43 (1938)
Iowa v. Tovar, 541 U.S. 77, 87-88 (2004).
Johnson v. Zerbst, 304 U.S. 458,464 (1938)

25
8
26
8,10,19,27

Logan v. Zimmerman Brush Co. 455 U.S. 422,437 (1982)

12

Murray v. Carrier, 477 U.S 478, 495 (1986)

21

United States v. Frady, 456 U.S. 152,170, (1982)

22

Von Moltke v. Gillies, 332 U.S. 708, 709-26 (1948).

20

Wainwright v. Sykes, 433 U.S. 72, 87 (1977)

19

Wiggins v. Smith, 539 U.S. 510, 534 (2003).

17,22

Williams v. Taylor, 524 U.S. 420,437 (2000)

18,19

CASES FROM THE UNDER STATES FEDERAL COURTS:
Ayeok v. Lytle, 196 F. 3d 1174,1177-78 (10th Cir. 1999)
Ayers v. Hall, 900 F. 3d 829, 837 (6th Cir. 2018)

25
22,27

Bolze v. Warden, 3:19-cv-0036-PLR-DCP (E.D. Tenn. Feb. 13, 2020)

17

Brooks v. Tennessee, 626 F. 3d 878, 891 (6th Cir. 2010)

21

Bryant v. Westbrooks, 2018 U.S. Dist. LEXIS 150668 (M.D. Tenn. Sept. 4, 2018)

13

Cristini v. McKee, 525 F. 3d 888, 897 (6th Cir. 2008)

25

Dyer v. Bowlen, 465 F. 3d 280, 284 (6th Cir. 2006)

25

Fautenberry v. Mitchell, 515 F. 3d 614, 629 (6th Cir. 2007)

20

Floyd v. Alexander, 148 F. 3d 615, 619 (6th Cir.) cert, denied, 525 U.S. 1025,119 S.Ct.
557,142 L. Ed. 2d 464 (1998);

25

Harris v. Stovall, 212 F. 3d 940, 942 (6th Cir. 2000).

25,28

Hill v. Mitchell, 2013 U.S. Dist. LEXIS 45919 at *358 (S.D. Ohio, March 13, 2013)

21

King v. Bobby, 433 F. 3d 483,492 (6th Cir. 2006)

26

MacFariance v. Westbrook, 2013 U.S. Dist. LEXIS 165050 (M.D. Tn. 11/20 2013)

13

Maldonado v Wilson, 416 F. 3d 470,475-76, (6th Cir. 2005) cert, denied, 546 U.S.
1101,126 S.Ct. 1038,163 L. Ed. 2d 874 (2006).

17,18

Maples v.Stegall, 340 F. 3d 433, 436 (6th Cir. 2003)

23

Maupiin v. Smith, 785 F. 2d 135,138 (6th Cir. 1986)(

19

McAdoo v. Elo, 365 F. 3d 487, 502 (6th Cir. 2004).

20

Mitts v. Bagley, 620 F. 3d 650, 658 (6th Cir. March 19, 2010)

21

Mortiz v. Woods, 844 F. Supp. 2d 831, 841 (6th Cir. 2012)

22

Phillip v. Neil 452 F. 2d 337, 349 (6th Cir. 1971), cert, denied, 409 U.S. 884 (1972).

11

Robinson v. Howes, 663 F. 3d 819, 824 (6th Cir. 2011

19

Williams v. Anderson, 460 F 3d 789, 806 (6th Cir. 2006).

19

Williams v. Coyle, 260 F. 3d 684, 706 (6th Cir. 2001)(

28

Williams v. United States, 582 F. 2d 1039,1041 (6th Cir.), cert, denied, 439 U.S. 988,
99 S.Ct. 584, 58 L. Ed. 2d 661(1978).

9

CASES FROM THE STATE OF TENNESSEE CRIMINAL COURT OF APPEALS
Bryant v State, 460 S.W. 3d 513 (Tenn. 2015)

13

Burford v. State, 845 S.W. 2d 204, 209 (Tenn. 1992)

12

Smith v. State, 987 S.W. 2d 871 (Tenn. Crim. App. 1998),

11

State v. Burkhard, 541 S.W. 2d 365 (Tenn. 1976);

10

State v. Fergusion, 2 S.W. 3d 916 (Tenn. 1999)

10,13

State v. Herrod, 754 S.W. 2d 627, 629-30 (Tenn. Crim. App. 1988).

10

State v. Northington, 667 S.W. 2d 57, 60 (Tenn. 1984

10

Whitehead v. State, 403 S. W. 3d 618, 622 (Tenn. 2013)

12,13,15

APPLICABLE STATE LAW OF TENNESSEE
Tenn. Code Ann. 8-14-206(a)-(b)

8,10,12,

Tenn. Code Ann. 30-40-102

9,10,12,

Tenn. Code Ann. 30-40-103

9,11,14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issues to review the judgment below:
As it relates to cases from federal courts:
The opinion of the United States court of appeals appears at Appendix E to the petition
and is published at Bolze v. Warden, 2019 U.S. App. LEXIS 20626, No. 20-5114 (6th Cir.
July 1, 2020).
The opinion of the United States district court appears at Appendix D to the petition and
is reported at Bolze v. Warden, 2019 U.S. Dist. LEXIS 215912, No. 3:19-cv-00369 (E.D.
Tenn. December 16, 2019).
As it relates to cases from State of Tennessee courts:
The opinion of the State of Tennessee Criminal Court of Appeals and the Supreme Court
of the State of Tennessee appears at Appendix C to the petition and is published at
Bolze v. State, E2018-01231-CCA-R3-PC (Tenn. July 17, 2019).
The opinion of the original State of Tennessee Criminal Circuit Court for Sevier County
appears at Appendix C of the petition and remains unpublished at this time.

JURISDICTION
The date on which the United States Court of Appeals decided my case was July 7, 2020.
A timely petition for rehearing was denied by the United States Court of Appeals on the
following date:

February 26, 2021 and a copy of the order denying rehearing appears at

Appendix F.
The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1)

-iii-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The questions presented concerns the abandonment by the Judiciary of the State of
Tennessee Legislative's mandates under Tenn. Code Ann. 8-14-206(a)-(b) for criminal court to
follow during all felony prosecutions. These mandates are consistent with a defendant's rights
of counsel his right of self-representation, and his right against self-incrimination encapsulated
within the Tennessee Constitution, the United States Constitution's Fifth, Sixth, and Fourteenth
Amendment Right to Due Process and the United States Supreme Court's long settled
precedents.

The trial court loses its jurisdiction to reach a valid conviction when it fails to

enforce a defendant's right to due process before accepting a plea of guilt.

The resulting

conviction and its judgment are void without legal effect.
The questions also concern the proper application of Tenn. Code Ann. 30-40-102(a)
involving a post-conviction claim.

A post-conviction claim is only valid - if - there is a valid

conviction in the first instance. While Tenn. Code Ann. 40-30-103 mandates relief from a void
or avoidable conviction. 28 U.S.C. §2254 statute of limitation is not applicable when the State
conviction has no legal effect.
A district court's review is limited, by statutory construction to valid post-conviction
claim where a procedural default exists and where the State courts did not adjudicate the
merits of the trial court's abandonment of State law to reach a void conviction. The district
court should have invoked the pre-AEDPA modified standard of review because the State
Criminal Court of Appeals did not attempt to reach the merits of the Constitutional issues
presented.

Page | 2

STATEMENT OF CASE
1).

In May of 2001, Bolze was indicted by the Sevier County Grand Jury on sixteen (16)

counts of Failure to File Sales Tax Return - a Class E felony in the State of Tennessee.
Appendix ("Appx.") A at 7-24. The July 2, 2001 arraignment sheet indicated that he stated he
was not guilty and had "[a]ppeared [without] counsel, but will retain counsel, 15 days allowed
[.]" and a change of plea hearing was scheduled. Id. at 27.

2).

On August 28, 2001, Bolze appeared at the change of plea hearing, without retained

counsel.

Bolze executed two State offered forms: a Waiver of Jury Trial and Entry of Guilty

Plea. The waiver forms indicate Bolze acted pro se. Id. at 28-30.

3).

The certified state trail record clearly indicates Bolze never sought appointed of counsel,

appointment of side-counsel, or was there any appearance of counsel.

The trail record does

not indicate whether the state court inquired into a lack of counsel - contrary to state law. The
court also did not confirm that he agreed to waive his right of counsel, or require Bolze to
execute an "in written" waiver of right of counsel, placing both in the trial record as mandated
by State law. Id. at 1-6.

4).

The plea provided that Bolze would be sentenced to two year for each Class E felony

conviction in Counts 1 through 4, with one count served consecutively, for an aggregate
sentence of six years probation. The remaining counts were nolle prosequied.

Page | 3

Id. at 28.

5).

The trial court accepted the plea and entered judgments, the top right of each judgment

form indicating that Bolze was pro se.

I).

Id. at 28-45.

In late 2010, Bolze plead guilty in federal court and was sentenced for financial crimes.

He was appointed counsel. Evidence indicates neither trial or appellate counsel investigated
the known prior uncounseled, unwaived right of counsel and unwaived right against selfincrimination state conviction.

Bolze's criminal history scoring was enhanced based on the

unchallenged prior conviction resulting in 117 months of heightened imprisonment.

See

United States v. Bolze, 3:09-cr-00093 (E.D. Tenn. 2009).

ZJ-

In early 2011, Bolze attempted to secure copies of the state trial court's records along

with a copy of the transcripts of the proceedings.

See Appx. A at 49-51; also see Appx. H;

Affidavit of Dennis R. Bolze at 1-4, citing 101-123 Correspondences between Bolze and Clerk's
Office.

S).

In 2012, after the Supreme Court denied a Writ of Certiorari, a timely 28 U.S.C. §2255

was filed seeking relief from the uncounseled, unwaived right of counsel and right against self­
incrimination state conviction sentencing enhancement.
Docs. 109-112 (E.D. Tenn. 2012).

See Bolze v. U.S.A., 3:09-cr-00093;

In late 2015, while still pursuing copies of the transcripts

from the state clerk's office, the habeas court only determination was the "[cjonvictions
derived from the voluntarily-entered plea of a non-indigent pro se defendant are wholly
consistent with the Sixth Amendment." See Id. at Doc. 145; §2255 Opinion at 37.

Page | 4

In doing

so, the habeas court failed to reach the merits of whether the state trial court had, in fact,
secured an "in writing" waiver of right of counsel or right against self-incrimination before
allowing Bolze to proceed with self-representation.

The habeas court denied an evidentiary

hearing for Bolze to offer his proof.

9).

For over 6 years, while pursuing his claim of constitutional error in federal court,

evidence indicates the State Clerk's Office had continued to "impede" Bolze's ability to obtain a
copy of the transcripts of the proceedings by insisting it was "still searching for the cassette."
Appx. H at 101-124.

10).

In 2017, after the Supreme Court denied a Writ of Certiorari based on the §2255

petition, Bolze moved in state court to vacate the otherwise void or avoidable judgment. The
Criminal Circuit Court denied the motion as time-barred and affirmed on reconsideration. The
initial post-conviction ruling did not include any analysis of the merits of the sentencing court's
abandonment of established state law. Appx. B at 52-53.

11).

A timely appeal was filed in the State Criminal Court of Appeal, where the appellate

court affirmed the lower court's opinion without reaching for the merits of the case. Appx. C
at 54-60; citing Bolze v. State, E2018-01231-CCA-R3-PC (Tenn. July 17, 2019).
Court for the State of Tennessee declined to consider the case.

12).

The Supreme

Id. at 61-62.

On August 19, 2019, a pro se 28 U.S.C. §2254 was timely filed in federal court raising he

same violations of state law.

Page | 5

On December 16, 2019, the district court denied an evidentiary

hearing based on the AEDPA time-bar without determining whether the state highest court to
hear the case had adjudicated the case based on its merits - that is: whether a fundamental
miscarriage of justice or a violation of the right to due process including violations of settled
state law existed to allow an evidentiary hearing to offer proof. Appx. D. at 63-71

13).

On January .23, 2020, a timely pro se notice of appeal was filed raising the same

violations of state law and errors of both the state and federal Constitutions.

See Bolze v.

Warden, 3:19-cv-00369 (E.D. Tenn. Jan. 23, 2020.

14).

The Sixth Circuit denied a Certificate of Appealablity ("COA") on July 1, 2020 [Appx. E at

22-75] and denied en banc rehearing on February 23, 2021.

See Appx. F at 76-77.

The

appellate court also did not address the merits of the underlying Constitutional errors or the
fact the State Criminal Court failed to subscribe to the intent of the Legislative's enactment of
Tenn. Code Ann. 8-14-206.

Page | 6

REASON FOR GRANTING THE WRIT
QUESTION ONE

WHEN A STATE INTENTIONALLY DEPRIVES AN INDIVDUAL OF A STATE LEGILATURE'S
MANDATE FOR A RIGHTOF COUNSEL OR HIS RIGHT AGAINST SELF-INCRIMINATION
DURING THE CRITICAL STAGE IN THE CRIMINAL PROCEEDINGS, DOES THE STATE
COURT LOSE SUBJECT-MATTER JURISDICTION OVER THE CRIMINA CASE?
I: FACTUAL BACKGROUND:
l

A factual basis was established through the "complete" certified Technical Record from
the Circuit Court of Sevier County at Sevierville, Tennessee which clearly indicates: (1) On May
30, 2001, Bolze was indicated for sixteen (16) counts of Failure to File Sales Tax Return - a Class
E felony; AppxA at 7-24; (2) on July 7, 2001, an initial appearance was made in Case No. 8611
where Bolze, appearing without counsel, was allowed 15 days to retain one.

Id. at 27; (3) On

August 28, 2001, Bolze again without an appearance or counsel or otherwise, and without an
"[i]n writing wavier" waiving his right of counsel and without waiving his right against self­
incrimination, entered a State offered plea agreement along with a Waiver of Jury Trial form.
Id at 28-30; and (4) the trial judge accepted the State's offered executed forms and sentenced
Bolze to six (6) years of imprisonment, suspended with an oversight term depriving Bolze of his
personal liberties.

Id. at 28-45.

The conviction is void due to the trial court lost of

jurisdiction to reach a constitutionally valid conviction and has no legal effect.

1 See Appx. A at 49-51; Appx. H at 101-123 showing correspondences between Bolze and Clerk's Office
and where the Clerk's Office stated that the "complete" trial record was being provided to Bolze.
Page | 7

II: THE STATE OF TENNESSEE'S LAW REGARDING CRIMINAL PROCEEDINGS

Certainly a federal district court would determine a guilty plea was defective under
federal law, by relying on the facts and the Supreme Court's holdings in Boykin v. Alabama,2
Johnson v. Zerbst, and Gideon v. Wainwright among others.

Tennessee law, however,

requires more than federal law in ensuring a felony criminal defendant either has counsel or
has properly waived counsel to proceed under self-representation before accepting a plea of
guilt.

In this regards, the Tennessee Legislature mandated in Tenn. Code Ann 8-14-206(a)-(b)

three provisions of law - i.e. the Waiver of Right of Counsel - the Writing - and the Procedure
for Acceptance as follows:

(a).

"[N]o person in this state shall not be allowed to enter a plea in any
criminal prosecution or other proceedings involving possible deprivation
of liberty when not represented by counsel, unless such person has in

(b).

writing waived the right to the assistance of counsel."
"[B]efore a court shall accept a written waiver of right of counsel; the
court shall first advise the person in open court concerning the right to
the aid of counsel in every stage of the proceedings."
"[T]he court shall at the same time determine whether or not there has
been a competent and intelligent waiver of such right, by inquiring into
the background, the experience, and the conduct of the person and
such other matters as the court may deem appropriate."
If a waiver is accepted, the court shall approve and authenticate it and
file it with the papers of the cause, and if the court is one of record, the
waiver shall also be entered into its official minutes."
(Emphasis and underline added)

2 See Boykin v. Alabama, 395 U.S. 238, 242-44 (1969); Johnson v. Zerbst, 304 U.S. 458, 464 (19938);
and Gideon v. Wainwright, 372 U.S. 335, 339-43 (1938);
Page | 8

Ill: ANALYSIS
In the context of a prisoner seeking relief from a void or avoidable state conviction, no
reasonable jurist would debate that in this case, the certified state trial record strongly
indicates the trial judge's failed to subscribe of the Legislature's mandate found in Tenn. Code
Ann. 8-14-206(a)-(b) cited above.

This was the basis for the pro se motion to vacate the judgment because, in affect, the
state trial court lost subject-matter jurisdiction by failing to follow state law before accepting a
plea of guilt.

If the sentencing court lacked jurisdiction, then the conviction is void or

avoidable and must be set aside.

3

The Tennessee Legislature further mandated that "[wjhen

the conviction or sentence js void or avoidable because of the abridgment of 'any' right
guaranteed by the Constitution or the Constitution of the United States," the court is directed
to grant prisoners post-conviction relief. The statutory construction does not tie this provision
of law with 40-30-102(a).

See Tenn. Code Ann. 40-30-103; also see Appx. G at 5 citing

Whitehead v. State, 403 S. W. 3d 618, 622 (Tenn. 2013) available at Appx. G herein. (Emphasis
added).

A: TRIAL COURT'S ABANDONMENT OF STATE LEGAL PRECEDENTS
The state trial court initially recognized in the post-conviction motion where the issue
involved "[t]he denial of counsel at the time of guilty plea." However, without an answer from

3 See Williams v. United States, 582 F. 2d 1039,1041 (6th Cir.), cert, denied, 439 U.S. 988, 99 S.Ct. 584,
58 L. Ed. 2d 661(1978).
Page | 9

the State, discovery, or any further proceeding on the issue including a hearing, the trial court
denied the motion as time barred citing Tenn. Code Ann. 40-30-102.

Appx. B at 52.

The trial court also recognized in the motion for reconsideration the "[a]rgu[ment] that
the statute of limitations should be tolled on procedural grounds." But, "[a]fter reviewing cited
authority and addition precedent, the court decline[d] to reconsider its previous order"
because "[t]he period for filing post-conviction relief should not be tolled in this situation."
The state court did not consider the merits of the motion. Id. at 53

The right of assistance of counsel in the preparation and presentation of a defense to a
criminal felony charge is cabined in both the Tennessee and United States Constitution. See
U.S. Const, amend VI; Tenn. Const, art. 1 at 9. There also exists an alternative right, the right
of self-representation which is necessarily implied by the structure of the Sixth Amendment
and Tenn. Code Ann. 8-14-206(a)-(b).4

The exercise of the right of self-presentation depends, in large part, upon a knowing and
intelligent waiver of the right of counsel. Id; State v. Burkhard, 541 S.W. 2d 365 (Tenn. 1976);
State v. Herrod, 754 S.W. 2d 627, 629-30 (Tenn. Crim. App. 1988). Consequently, in cases
where the accused represents himself, as was in Bolze's case, the trial judge has a duty to first
determine whether the waiver is knowing and intelligent under state law. See 8-14-206(a)-(b);

4 See Faretta v. California, 422 U.S. 806, 821-22 (1975); State v. Northington, 667 S.W. 2d 57, 60
(Tenn. 1984)("[T]he right to defend is given directly to the accused, for it is he who suffers the
consequences if the defense fails."); also see Northington, 667 S.W. 2d at 60 (quoting Faretta, 442
U.S. at 821-822.).
Page | 10

also see Johnson v. Zerbst, 304 U.S. 45, 465 (1938)(The Supreme Court placed "[t]he serious
and weighty responsibility ... of determining whether there is an intelligent and competent
waiver" directly upon the judge.).

In Smith v. State, 987 S.W. 2d 871 (Tenn. Crim. App. 1998),

the Court affirmed that in cases where a defendant aspires to proceed pro-se, the trial court
should conduct its inquiry in accordance with the guidelines contained in 1 Bench Book for
United States District Judges 1.02.2 to 5 (3rd ed. 1986).

In addition, both State and Federal laws holds the waiver must be clear from the trial
record that the defendant understood the nature of the rights waived and knowing asserted to
their waiver. Phillip v. Neil 452 F. 2d 337, 349 (6th Cir. 1971), cert, denied, 409 U.S. 884 (1972).
"[A] valid waiver of the right of counsel must appear in the record and will not be otherwise
presumed from a silent record."

Carnley v. Cochran, 369 U.S. 506 at 516-17 (1987); also see

Tenn. Code Ann. 8-14-206(a)-(b).

Finally, in Burgett v. Texas, 389 U.S. 109 (1967), the High

Court explained that the certified records of the Tennessee conviction "[rjaises a presumption
that petitioner was deprived his right of counsel ... and therefore his conviction was void." Id.
at 114, 88 S.Ct. at 261.

Jurist would not debate that Federal district courts are under a duty to hold an
evidentiary hearing on state claims that have been unconstitutionally been denied right of
counsel prosecution, where material facts reaching on issues of knowing and voluntary waiver
were inadequately developed in state court's post-conviction proceedings.
405 U.S. 1, 30 L. Ed. 2d 755, 92 S.Ct. 758 (1972).
Page | 11

Boyd v. Dutton,

On its face, the plain language of Tenn. Code Ann. 40-30-102(a) would bar Tennessee
courts from considering any petition for post-conviction relief that was untimely for any reason
other then those listed in Tenn. Code Ann. 40-30-102(b).

However, the General Assembly of .

Tennessee may not enact laws that conflict with the Constitution of the Tennessee or the
Constitution of the United States. Both the United State Supreme Court and the Supreme
Court of Tennessee have recognized fundamental due process rights.

Appx. G at 83 citing

State v. Whitehead, S.W. 3d at n.8 (Tenn. 2013)(citing U.S. Const, amend VI at 1 and amend V;
Tenn. Const, art. 1 at 8).

Fundamental due process requires that, once the Legislature

provides prisoners with a method for obtaining post-conviction relief, prisoners must be
afforded an opportunity to seek this relief. Id. at 6 citing Burford v. State, 845 S.W. 2d 204,
209 (Tenn. 1992)(citing Logan v. Zimmerman Brush Co. 455 U.S. 422, 437 (1982).

With regards to Bolze's right to bring a state due process violation before the state
court, claiming the conviction is void or avoidable under state law because of an abridgement
of the Constitution's due process violation, the Tennessee Supreme Court recognized that due
process is flexible and calls for such procedural protections as a particular situation demands.
The flexible nature of procedural due process requires an imprecise definition because due
process embodies the concept of fundamental fairness.

In determining whether what

procedural protections a particular situation demands. The State Supreme Court held that
"[t]he private interest stakes" of the petitioner must be considered.

In the post-conviction

context, the Tennessee Supreme Court explained that "[t]he private interest stakes" is the

Page | 12

opportunity to attack a conviction on the grounds that he was deprived of a constitutional right
during the conviction process. Appx. G at 82-84 citing Whitehead, 402 S.W. 3d at 623 (citing
Burford, 845 S.W. 2d at 207).

The Legislature recognized the United States Constitution and its Constitution required a
separate avenue (part from Tenn. Code Ann. 40-30-102) for Tennessee courts the ability to by­
pass the statute of limitations and grant petitioners post-conviction relief when a "[c]onviction
or the sentence is void or avoidable because of an abridgement of any right guaranteed by the
Constitution of Tennessee or the Constitution of the United States".

Appx. G at 82-84 citing

Whitehead 402 S.W. at 622 (citing Tenn. Code Ann. 40-30-102); Bryant v State, 460 S.W. 3d
513 (Tenn. 2015)("[W]hen the conviction or sentence is void or avoidable because of the
abridgement of any right guaranteed by the Constitution of Tennessee or the Constitution of
the United States, post-conviction relief is appropriate."); Bryant v. Westbrooks, 2018 U.S.
Dist. LEXIS 150668 (M.D. Tenn. Sept. 4, 2018); MacFariance v. Westbrook; 2013 U.S. Dist. LEXIS
165050 (M.D. Tenn. Nov. 20, 2013)("[T]he Tennessee Supreme Court has previously construed
the Tennessee Constitution's protection of due process to be co-extensive with the protections
provided by the United States Constitution.")(quoting State v. Fergusion, 2 S.W. 3d 916 (Tenn.
1999)(quoting Bryant v. State, 845 S.W. 3d at 107).

In this case, the trial court committed a legal error in denying the pro se motion by not
adjudicating the merits of an abandonment of exception ("the private interest stake") cabined

Page | 13

in Whitehead's precedent of the facts of the case and only limiting its review under Tenn. Code
Ann. 40-30-102(a) and failing to consider Tenn. Code Ann. 40-30-103. Appx. B at 52-53.

B: THE CRIIMINAL COURT OF APPEALS ABANDONMENT OF LEGAL PRECEDENTS.
An appeal was filed with the Tennessee Criminal Court of Appeals ("TCCA") to advance
the grievance that the felony conviction was void or avoidable because of the abridgement of
Bolze's constitutional rights to due to the trial judge's clear abandonment of mandated State
law under Tenn. Code Ann. 8-14-206(a)-(b).

TCCA unreasonably made an application of state law when it explained that
"[petitioner's claims require proof outside the record." "[T]he limited records is silent on the
issue of whether the trial court property ascertained that the Petitioner made an informed
decision to represent himself [.]" "[Tjhus, the Petitioner's claim requires a finding of fact not
available in the record." Appx. E at 74-75.

As demonstrated above, the Legislature made it clear in Tenn. Code Ann. 8-14-206 for
the trial judge's mandated duty to "[pjroperly ascertain" a defendant's decision to

self­

representation was made through "[a]n informed decision," and "[sjuch person has 7n writing'
waived the right of assistance of counsel" before "[b]e[ing] allowed to enter a plea." See Tenn.
Code Ann. 8-14-206(a) (emphasis and underline added).

Further, the law required that the

judge "[mjust first advise the person in open court concerning the right to aid of counsel" and
"[sjhall at the time determine whether or not there has been a competent and intelligent
waiver of such right" and "[i]f a waiver is accepted, the court shall approve and authenticate it
Page | 14

and file it with the papers of the case."

See Tenn. Code Ann. 8-14-206(b) (emphasis and

underline added).

The State did not argue nor did the TCCA not find that contrary to the evidence provided
from the certified trial court records (its papers) that the record was incomplete. Rather, only
that the silent record "[rjequires a findings of fact outside the record." Appx. E at 74. This was
exactly the premise of Bolze's argument, the trial judge failed to meet the mandates of State
law and place a properly waived right of counsel and a properly waived right against self­
incrimination in the record before accepting a plea of guilt.

It was the trial court actions who

did not subscribe to state law and "cause" the trial record to be silent or void of any mandated
compliance with State law - not the actions of the defendant.

In addition, TCCA further made an unreasonable application of law in another manner.
The Court cited Whitehead v. State; 402 S.W. 3d 615 (Tenn. 2013) which identified three (3)
scenarios requiring tolling the post-conviction statute of limitation. As stated above, one such
scenario is the "[ojpportunity to attack his conviction [ ] on the grounds he was deprived of a
constitutional right during the conviction process." Appx. G at 83.

TCCA provided no analysis of the merits of the claim of whether or not one of those
three (3) scenarios existed or whether or not there was a deprivation of a constitutional right
under the Tennessee Constitution, the Constitution of the United States, or a Legislative
mandates.

Page | 15

TCCA provided no analysis of findings of fact of where the Legislature provided a

separate avenue for petitioners to attack their conviction or sentence when the "[c]onviction
or sentence is void or avoidable because of an abridgement of any right guaranteed by the
Constitution of Tennessee or of the United States. See Tenn. Code Ann. 40-30-103.

TCCA

provided no analysis as to the merits of the claim presented of whether or not this Legislative
mandate was applicable to the application of either State or Federal law in this case.

Finally, TCCA reached an unreasonable determination of facts and an unreasonable
application of law when it explained "[t]hat a judgment is entitled to a presumption of
regularity and is not void unless a defect appears on the face of the judgment." Appx. E at 7475.

In this context, the Waiver of Jury Trial and Guilty Plea form (a part of the judgment

record) does not entitle a presumption of regularity when Bolze proceeded with self­
representation since the face of the judgment is void of any waivers of right of counsel and
wavier of right against self-incrimination.

Thus, reasonable jurist would find no debate that the TCCA made both an unreasonable
application of State or Federal law or an unreasonable determination of law in light of the
t
facts and merits they would drawn from the certified state trial record.

Jurist would find no

debate TCCA denied Bolze's his ability to cure the constitutional defects (created by the trial
judge) and allow him to an opportunity to expand the record and prove his claim that he
ultimately enter an unknowing and unintelligent plea of guilt.

Page | 16

It must be noted that under the AEDPA standard of review; however, it only applies to claims
that are "adjudicated on the merits in highest State court proceedings to review the matter.
See 28 U.S.C. §2254(d); Wiggins v. Smith, 539 U.S. 510, 534, 123 S.Ct. 2527, 156 L. Ed 2d 471
(2003).

When a claim is not adjudicated in the state court proceedings, the pre-AEDPA

modified standard controls reviewing de novo questions of law and mixed questions of law and
fact. Maldonado v Wilson, 416 F. 3d 470, 475-76, (6th Cir. 2005) cert, denied, 546 U.S. 1101,
126 S.Ct. 1038,163 L. Ed. 2d 874 (2006).

QUESTION TWO:
IS 28 U.S.C. §2254's LIMIT CONSTITUTIONALLY VALID WHEN ITS
ENFORCEMENT RESULTS IN AN INDIVIDUAL'S DETENTION WITHOUT
A LAWFUL REASON - i.e. A VALID CRIMINAL JUDGEMENT?
The Supreme Court of Tennessee denied to hear the pro se Application for Permission
to Appeal. Appx C at 61-62. A timely 28 U.S.C. §2254 petition was filed in the United States
District Court.

See Bolze v. Warden, 3:19-cv-0036-PLRtDCP (E.D. Tenn. Feb. 13, 2020). The

district court recognized the grievance was "[bjecause he was denied his constitutional rights
to counsel and against self-incrimination."

The Court determined "[tjhis action will be

dismissed as untimely." Appx D; at 63 citing Doc. 11 at 1 & 2.

The modified standard of review held in Maldonado for habeas petitions under AEDPA
requires the court to conduct a careful "review of the record" and "applicable law," but
"nonetheless bars the court from reversing unless the state court's decision is contrary to or an

Page | 17

unreasonable application of federal law."

Id. Maldonado, 416 U.S. at 416 F. 3d 476 citing

Williams v. Taylor, 529 U.S. 362, 412-23,146 L. Ed. 2d 389,120 S.Ct. 1495 (2000).

When there is noncompliance with a state procedural rule, the district court conducts a
four-step analysis to determine whether the petitioner has indeed defaulted and, if so,
whether the default may be excused:
1).

Whether there is a procedural rule applicable to the claim at issue, and
whether the petitioner in fact failed to follow it;

2).

Whether the state courts actually enforced their procedural sanction;

3).

Whether the state's procedural forfeit is an "adequate and independent
ground "on which the state can rely to foreclose federal review; and

4).

Finally, in order to avoid default, the petitioner can demonstrate that there
was "cause" for him to neglect the procedural rule, and that he was
actually prejudiced by the alleged constitutional error.

See Maupin v. Smith, 785 F. 2d 135, 138 (6th Cir. 1986)(citing Wainwright v. Sykes, 433 U.S. 72,
87 53, L. Ed. 2d 594, 975 S.Ct. 2497 (1977).

In this case, reasonable jurist would debate that

these prescribed steps were not adhered to in the district court's own analysis.

The AEDPA does provide a one-year statute of limitation for filing an application for a
federal writ of habeas corpus. Claims deemed procedurally defaulted when at the time of the
federal habeas petition; state law no longer allows the petitioner to raise the claim. See
Williams v. Anderson, 460 F 3d 789, 806 (6th Cir. 2006).

Page | 18

To overcome a procedural bar, petitioners must show cause for the default and actual
prejudice that resulted from the alleged violation of federal law - or - that there will be a
fundamental miscarriage of justice if the claims are not considered. Id. citing Coleman v.
Thompson, 501 U.S. 722, 750 (1991).

In certain cases, the AEDPA instructs that a district court "[sjhall not hold an evidentiary
hearing" unless a petitioner meets a very similar standard to that laid out in 2244 (b)(2). See
28 U.S.C. §2244(c)(3).

This heightened standard, however, applies only if petitioner "[fjailed

to develop the factual basis for a claim in State court proceedings." Id.

A petitioner has not

"[fjailed to develop the record in the manner contemplated by this subsection "[wjhen is was
unable to develop his claim in state court despite diligent effort" then an evidentiary hearing
will not be barred by §2254(e)(2). See Williams v. Taylor, 524 U.S. 420, 437 (2000).

A:

BOLZE MET THE "CAUSE" ELEMENT OF COLEMAN v. THOMPSON

The heightened standard imposed by §2254(e)(2) depends on whether the petitioner
was diligent in his efforts to develop a factual basis for his claim - the "cause" (the factual basis
is the certified State trial record indicating the trial judge failed to abide by State law), not on
whether the facts could have been discovered or whether those efforts would have been
successful.

Id. at Williams, 524 U.S. at 435-37.

Rather, the applicant must make "[a]

reasonable attempt, in light of the information at the time, to investigate and pursue claims in
the state court. In this case, seeking to obtain transcripts from the court for over 6 years from
2011 through 2017.
Page | 19

Appx. H, Affidavit of Dennis R. Bolze & Exhibits; also see Robinson v.

Howes, 663 F. 3d 819, 824 (6th Cir. 2011)(quoting McAdoo v. Elo, 365 F. 3d 487, 502 (6th Cir.
2004).

Certainly, when seeking transcripts from prison from the Clerk's Office would be an

external factor when the Clerk's Office only indicates that it is still searching for the cassette.
Appx. H, Exhibits 101-123.

In must be noted where §2254 (i) precludes a petitioner from relying on the
ineffectiveness of his post-conviction attorney as a "ground for relief," it does not stop the
petitioner from using the trial court's own failures to subscribe to state law, or where the
Clerk's Office clearly continued to impede the defendant up to September 9, 2017 from
bringing his claim to excuse procedural defaults.

In Fautenberry v. Mitchell, a habeas petitioner showed "cause" where the
demonstrated that he failed to raise a constitutional due process issue because it was
"[reasonably unknown to him at the time."

See Fauntenberry, 515 F. 3d 614, 629 (6th Cir.

2007)(citing Amadeo v. Zant, 466 U.S. 214, 222 (1988). The fact is that Bolze did not know at
the time, that when the State had exclusively provided advise to him that was not in
accordance with State law, i.e., 8-14-206(a)-(b) and advised Bolze to just self-represent to
adjudicate the case that day when it offered the plea to Bolze was "cause." See Von Moltke v.
Gillies, 332 U.S. 708, 709-26 (1948).

Courts have found "cause" to excuse any procedural default when the merits of the
constitutional claims would prove a violation of Federal due process rights cabined in the

Page | 20

United States Constitution and the laws established by the United States Supreme Court. For
example:

A).

In Mitts v. Bagley, a constitutional due process violation claim was raised by way

of a §2254 petition.

The district court found "cause" surrounding a violation of due

process based on the jury instructions.

The court remanded with further instructions to

issue a writ of habeas corpus. See Mitts. 620 F. 3d 650, 658 (6th Cir. March 19, 2010)

B).

In Hill v. Mitchell, a constitutional due process violation Brady claim was raised

by way of §2254 petition. The district court held that Hill had proved his Brady violation
claim which demonstrated "cause" and "prejudice" to excuse the procedural default of his
claim. See Hill, 2013 U.S. Dist. LEXIS 45919 at *358 (S.D. Ohio, March 13, 2013)(citing
Brooks v. Tennessee, 626 F. 3d 878, 891 (6th Cir. 2010)(holding"[a] state's suppression of
Brady evidence constitutes "cause" under the procedural default doctrine citing Banks v.
Dretke, 540 U.S. 668, 691 (2004).

C).

In Stilner v. Hart; the district court considered a §2254 petition associated with a

claim of constitutional due process violation surrounding the right to effective assistance of
counsel. The court stated Stiltner had established "cause" to excuse default because of a
showing of some external impediment preventing his defense from construing and rising
the claim citing Murray v. Carrier, 477 U.S 478, (1986); Sykes, 433 U.S. at 72 (1977).

Page | 21

2).

Finally, and most instructive is a recent §2254 petition bringing the same facts to

the High Court's attention. In Ayers v Hall, the defendant was charged with counts of
"[f]ailure to file sales tax returns" in the State of Kentucky.
an attorney.

The defendant wanted to hire

The certified state record in this case showed Bolze wanted to hire an

attorney also and was given 15 days to do so. Ayers never filed a notice of appearance of
any kind, appeared with side counsel for any purpose, or filed a motion to be allowed to
precede pro-se during that time.

Bolze's actions before entering his plea mirror those of

Ayers. The Court, without an "in writing" waiver of right of counsel allowed the defendant
to proceed with self-representation.

The same facts as Bolze's case.

The defendant, in his §2254, argued the State court failed to determine whether he had
ever knowingly and voluntarily "[w]aived his rights under the Sixth and Fourteenth
Amendment."

The same facts as in Bolze's case. The Sixth Circuit, in Ayers, determined

based on the trial court's records and Federal law, a remand with instructions to grant a
writ of habeas corpus. See Ayers v. Hall, 900 F. 3d 829, 837 (6th Cir. 2018).

These examples support the premise that Bolze had "cause" to proceed in this case.

B:

BOLZE MET THE "ACTUAL PREJUDICE" ELEMENT OF COLEMAN v. THOMPSON

As to the actually demonstrating "prejudice," Bolze was required to show "[njot merely that
the errors at his state trial created a possibility of prejudice, but that they worked to his actual
and substantial disadvantage, infecting his entire trial with error of constitutional dimensions."

Page | 22

United States v. Frady, 456 U.S. 152, 170, 102 S.T. 1584, 71 L. Ed. 2d 816 (1982)(emphasis in
original).

First, the error of constitutional dimension was Bolze entered an uncounseled, unwaived
right of counsel plea agreement; (2) Bolze entered the plea without waiving his constitutional
right against self-incrimination; and (3) Bolze enter his plea without being advised by the state
court the conviction could actually be used against him

in any future convictions to his

disadvantage.

Bolze's federally imposed sentence was enhanced with the unchallenged inclusion of his
unwaived, uncounseled state felony conviction. Bolze's sentence was based on an Offense
Level 37, Criminal History Category III (262 to 327 months Guideline range) where he was
sentenced at the high-end of the range to 327 months.

See Bolze, 3:09-cr-93 [PSR at 1184 &.

Doc. 94; Judgment] (E.D. Tenn. Aug. 26, 2010).

With the correct Guideline range based on exclusion of the state conviction, the
sentencing range would have been 292 to 293 months of incarceration.

A different of 34 to

87 months based solely on the district court's citation of the state conviction to reach the highend of the

Guidelines range.

Bolze was clearly prejudiced when he entered his plea

unknowing and unintelligently without a Faretta-style inquiry and without an "in writing"
waiver of his constitutional rights based on the State prosecutor's representations. See Appx.
H; Affidavit of Dennis R. Bolze; Mortiz v. Woods, 844 F. Supp. 2d 831, 841 (6th Cir. 2012)(citing

Page | 23

Roe v. Flores-Ortega, 528 U.S. 470, 483 (2000)(The High Court has clearly established that the
complete denial of counsel during a critical stage of a judicial proceedings mandates a
presumption

of prejudice.); Burgett v. Texas, 389 U.S. 109, 115 (1967)(A prior criminal

conviction which is constitutionally infirming inherently prejudicial.).

Reasonable jurist would not debate the district court's determination had not address
the merits of the action making a noted findings as to whether or not there was "cause" for the
default or whether or not there was actual "prejudice." The district court did not address
whether or not the application of Tenn. Code Ann. 40-30-103 would allow for review of a void
or avoidable conviction based on the law or whether or not Bolze entered his plea knowingly
or intelligently. This was a true mis-application of settle law.

C:

BOLZE MEETS THE STANDARD THAT THERE WILL BE A FUNDAMENTAL
MISCARRIAGE OF JUSTICE IF THE CLAIMS ARE NOT CONSIDERED.

When a State court fails to adjudicate a claim on the constitutional merits, as in this
case, the AEDPA's deference standard or review does not apply. See Maples v.Stegall, 340 F.
3d 433, 436 (6th Cir. 2003)("[AEDPA] by its own term in applicable only to habeas claims that
were 'adjudicated on the merits in State court."

Id. (quoting 28 U.S.C.§2254(d).

This rule

extends to portions of a claim not addressed by the state courts. See Wiggins v. Smith, 539
U.S. 510, at 534(2003).
Courts "[mjust uphold the state court's summary decision unless [the Federal Court's[
independent review of the record and pertinent federal law persuades [the Federal Court]

Page | 24

that its result contravenes or unreasonably applies clearly established federal law, or is based
on an unreasonable determination of facts in lights of the evidence presented." Harris v.
Stevall, 212 F. 3d 941, 943 (6th Cir. 2000)(quoting Ayeok v. Lytle, 196 F. 3d 1174, 1177-78 (10th

Cir. 1999).
As to the merits, claims of state law error are not cognizable in federal habeas corpus
"[ujnless such errors amounts to a fundamental miscarriage of justice - or - a violation of the
right of due process in violation of the United States Constitution." Cristini v. McKee, 525 F.
3d 888, 897 (6th Cir. 2008)(citing Floyd v. Alexander, 148 F. 3d 615, 619 (6th Cir.) cert, denied,
525 U.S. 1025, 119 S.Ct. 557, 142 L. Ed. 2d 464 (1998); also see Coleman v. Thompson, 501

U.S.722 at 759(1991).
In this action, jurist of reason would debate that because the state court decisions runs
contrary to binding State law, the Constitution of Tennessee, the Constitution of the United
States, and biding precedent established by the United States Supreme Court, that decision is
no longer owed deference, allowing a de novo review of Bolze's Fifth, Sixth, and Fourteenth
Amendment's Due Process Rights claims to proceed. See Dyer v. Bowlen, 465 F. 3d 280, 284
(6th Cir. 2006).

The Sixth Amendment provides a criminal defendant both "[tjhe right ... have the
assistance of counsel for his defense" [U.S. Const, amend VI], as well as "[t]he right to selfrepresentation-to make his own defense personally." Faretta, 422 U.S. at 819.

Page | 25

Although

defendants have both the right to counsel and the right to waive counsel, "[i]t is undeniable
that in most criminal prosecutions defendants could better defend with counsel's guidance
than by their own unskilled efforts," defendants who opt to go it alone, "[Relinquish, [ ] as a
purely factual matter, many of the traditional benefits associated with the right of counsel. Id.
at 834-35.

For this reason, the Sixth Amendment "[Requires that any waiver of the right of counsel
be knowing, voluntary, intelligently given;"

Iowa v. Tovar, 541 U.S. 77, 87-88 (2004).

Critically, "[presuming waiver [of the right of counsel] from a silent record is impermissible."
Carnley v. Cochran, 369 U.S. 506, 516 (1962). Rather, "[t]he record must show or there must
be an allegation and evidence which show, that an accused was offered counsel but
intelligently and understandingly rejected the offer. Anything else is not a waiver." Id.

Here, the undisputable certified trail-court record is devoid of any indication that Bolze
was advised of his right of counsel or that he affirmatively declared to exercise that right. A
trial court may not assume the accused's silence alone constitutes a knowing and intelligent
waiver of the right of counsel or a waiver against self-incrimination. See e.g., King v. Bobby,
433 F. 3d 483, 492 (6th Cir. 2006).

The State for its part did not address or find Bolze's had

waived his rights through his conduct.

To affirm, there would be a "[n]eed to hold that a defendant who was allegedly never
informed of his rights of counsel or his rights against self-incrimination, never spoke of a desire

Page | 26

to represent himself, or was never asked if he wanted to proceed pro se, had nonetheless,
waived his rights simply by appear alone; such a holding would contradict Carnley's prohibition
against assuming waiver simply because the defendant appeared without counsel [Carnley,369
U.S. at 514] and would counter the Supreme Court's requirement that "[c]ourts indulge every
reasonable presumption against waiver of fundamental

constitutional rights and ... not

presume acquiescence in the loss of fundamental rights. Id. (quoting Johnson v. Zerbst, 304
U.S. 458, 464 (1938); Ayers, 900 F. 3d at 837.

Finally, "[defendants have no affirmative obligation to invoke their right to counsel" or
their right against self-incrimination; "[r]ather, courts must offer defendants the opportunity
to invoke their rights and determine who wish o go it alone must intelligently and
understandably reject the offer." Carnley; 369 U.S. at 516. For fifth-eight years "[i]t has been
well settled in this nation, that 'anything' else is not a waiver." Id. at 837.

The district court failed to observe or conduct any legal analysis of whether the state
conviction was void and whether the state court lost subject-matter jurisdiction resulting in a
void conviction. A conviction with no legal effect.

The district court did not address the

constitutional error in any manner and thus, reasonable jurist would debate the district court
ruling was contrary to settle law and that an evidentiary hearing was needed to allow Bolze to
present his defense and prove his claim.

Page | 27

Appellate courts apply a de novo review to decisions of the district court. Harris v.
Stovall, 212 F. 3d 940, 942 (6th Cir. 2000).
AEDPA, codified principally at §2254(d).

Bolze filed his §2254 after the passage of the

It provides in part that a federal court may grant a

writ of habeas with respect to a state-court judgment.
applicable only to valid state-court judgments.

This statute by its own terms is

Where, as here in this action, the state court

did not assess the merits of a claim properly raised in the habeas petition, thus, deference due
under AEDPA does not apply. Williams v. Coyle, 260 F. 3d 684, 706 (6th Cir. 2001)(applying the
pre-AEDPA standards to a habeas petition filed pursuant to §2254 because "[n]o state court
reviewed the merits of [the] claim that the conviction was void.

Instead, the Appellate Court's

review questions of law and mixed questions of law and facts de novo. Id.

In this legal precedent, reasonable jurist would argue and debate the facts of this case
as discussed above, which establishes an unreasonable application of, clearly established
Federal law or was the result of an unreasonable determination of facts in light of the certified
trial-court record and the fact the conviction was void and has no legal effect.

Page | 28

CONCLUSION
The certified state court record clearly rebuts the presumption of correctness by its
compelling and convincing evidence that Bolze proceed in self-representation without waiving
his rights afforded under due process in violation of State law, the Constitution of Tennessee,
the Constitution of the United States Fifth, Sixth, and Fourteenth Amendments.

The state trial court lost its jurisdiction to accept a knowing and intelligent plea of guilt
and thus, the conviction on its face is void or avoidable.

Bolze is suffering the effects of this

violation of his rights with a federally enhanced sentence of at least 34 months and as much as
87 months.

Both the State's highest court to hear the matter and the Federal courts have held to
the principle that a procedural default excludes a writ being issued for Bolze to present his
constitutional errors and offer proof.

For this reason, a writ of habeas corpus should be

granted to provide this Defendant his first opportunity to have th& claim adjudicated on its
merits.

DATED: March 12, 2021
Dennis Roger BoJzje, pro se
Reg. No. 14825-067
FCI Coleman Low
P.O. Box 1031
Coleman, FL 33521-1031

Page | 29

%

DECLARATION
I above statement, evidence, and facts presented are true/ancmcorrect to the best of
knowledge and the statement is made under the pains and penalty of perjury._______

Dennis Roger Bolze

Page | 30

